<html>
<title> - THEME STUDY TO IDENTIFY SITES OF COLD WAR; STUDY SITES IN BEAUFORT, SC; McLOUGHLIN HOUSE IN OREGON CITY, OR; BOUNDARY OF GLEN CANYON RECREATION AREA; AND SAN GABRIEL RIVER WATERSHED RESOURCE STUDY</title>
<body><pre>[Senate Hearing 108-59]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-59
THEME STUDY TO IDENTIFY SITES OF COLD WAR; STUDY SITES IN BEAUFORT, SC; 
McLOUGHLIN HOUSE IN OREGON CITY, OR; BOUNDARY OF GLEN CANYON RECREATION 
          AREA; AND SAN GABRIEL RIVER WATERSHED RESOURCE STUDY

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 452                                S. 630

                           S. 500                                H.R. 519

                           S. 601                                H.R. 733

                           S. 612                                H.R. 788


                                     
                               __________

                              MAY 13, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______
88-040              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER. Tennessee           BYRON L. DORGAN, North Dakota
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bennett, Hon. Robert F., U.S. Senator from Utah..................     4
Boxer, Hon. Barbara, U.S. Senator from California................     9
Hollings, Hon. Ernest F., U.S. Senator from South Carolina.......     2
Masica, Sue, Associate Director for Park Planning, Facilities and 
  Lands, National Park Service, Department of the Interior.......    11
Reid, Hon. Harry, U.S. Senator from Nevada.......................     3
Smith, Hon. Gordon, U.S. Senator from Oregon.....................     6
Solis, Hon. Hilda L., U.S. Representative from California........     8
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Wyden, Hon. Ron, U.S. Senator from Oregon........................     4

                                APPENDIX

Additional material submitted for the record.....................    23

 
THEME STUDY TO IDENTIFY SITES OF COLD WAR; STUDY SITES IN BEAUFORT, SC; 
McLOUGHLIN HOUSE IN OREGON CITY, OR; BOUNDARY OF GLEN CANYON RECREATION 
          AREA; AND SAN GABRIEL RIVER WATERSHED RESOURCE STUDY

                              ----------                              


                         TUESDAY, MAY 13, 2003

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. We will start. It is 10 o'clock and we have 
a number of things to do. Senator Bennett has another 
obligation, so I want to welcome you here.
    We are talking eight different bills before the 
subcommittee today and they are various kinds of bills that 
have authorizations for studies, authorization for the 
expansion of some territories, and so on. So I will not bother 
to go through those right at the moment, but I do want to say 
that as we look at all these new things we are talking about in 
terms of heritage area studies, and so on, I think we have 
always a responsibility to make sure that what we are doing 
fits into the role of the Park Service and that we become aware 
of the difficulty sometimes to manage the things we have now, 
and we want to make sure that as we make additions they have an 
additional--add to the value of our Park Service.
    So why don't we go right ahead to--let us see here, 
Senator. This is--what bill is this? S. 612, okay. Yes, I see. 
It revises the boundary of Glen Canyon National Recreation Area 
in the States of Utah and Arizona.
    Thank you for being here, Senator, and if you would like to 
go ahead, please.
    [The prepared statements of Senators Hollings, Reid, and 
Wyden follow:]

      Prepared Statement of Hon. Ernest F. Hollings, U.S. Senator 
                          From South Carolina

    I would like to thank Chairman Thomas and Ranking Member Akaka for 
holding this hearing today and reviewing S. 500, the Beaufort Study 
Act. This legislation was considered by the Subcommittee in June of 
last year and received unanimous support by the Subcommittee, Full 
Committee and on the Senate floor. Unfortunately, due to time 
restraints in the 107th Congressional Session, the House was unable to 
act on the legislation.
    The period of Reconstruction immediately following the Civil War is 
one of the least understood periods in American History. Understanding 
this pivotal era is essential to understanding America's history of 
race relations. This is a largely unrecognized period of our history 
that should be included in our National Park System. Many prominent 
American historians recognize Beaufort County as the best location for 
telling the story of Reconstruction and the beginning of a black 
history in a free America. I would like to submit a copy of my 
testimony from last year's hearing for the record. Again, I appreciate 
your taking the time to consider this legislation.
    I am here before you today to testify on behalf of black history 
and the foundations of freedom that began on St. Helena Island in 
Beaufort, South Carolina at the Penn Center.
    The Reconstruction Era is recognized as a painful, divisive and 
controversial period in our nation's history--particularly in the 
South. Perhaps this is why the Congress and the National Park Service 
have avoided focusing on the preservation or interpretation of historic 
sites related to the Reconstruction Period and African American history 
from that period. I see Reconstruction as the foundation of 
unification--not only the unification of North and South, but the 
unification of black and white--and the vision for equality, unity and 
hope. The nationally significant events that turned the tide for the 
Union and Confederate forces in the Civil War began in the capture of 
the Beaufort Lowcountry. Likewise, the events of the Port Royal 
experiment and establishment of the Penn Center turned the tide of 
emancipation, freedom, and civil rights. Until we acknowledge our 
history, our heritage, our mistakes and our successes, we will never 
overcome the racial divide that has continued to plague the unity of 
this nation.
    As a young legislator, I had the good fortunate to work with a man 
named Esau Jenkins, an African American from the Sea Islands. I can see 
him right now in my office when I was a young lawyer. Esau never had a 
formal education. He taught himself--and taught himself to speak Greek, 
of all things. Not only was he an inspiration of self-help and 
innovation to so many in his community, he was a leader with a vision 
for equality.
    He once said to me, ``You've got to understand, education is our 
only chance.''
    I said, ``What do you mean, Esau?''
    He said, ``Ignorance Hollings. Ignorance is the greatest prison 
there is. My people have been imprisoned.''
    Plantation owners systematically deprived their slaves of literacy 
and education. As my friend Esau so eloquently pleaded, not only were 
slaves imprisoned by their owners, they were imprisoned by ignorance. 
When tutors came to teach the little white children, the black children 
were never able to participate because the way to make for a good slave 
was to make sure their minds were never unsettled, their curiosity was 
never inflamed.
    The abolitionists knew that without education, emancipation would 
be a false promise to black Americans. Likewise, newly freed slaves in 
the 1860s saw a clear link between education and freedom. The Sea 
Islands of Beaufort, South Carolina is where it all began. The first 
reading of the Emancipation Proclamation was at Old Fort Plantation. 
The Beaufort Arsenal was where freedmen voted for the first time. 
Mitchellville on Hilton Head Island was the first Freedman's Village. 
And, most notably, the Penn Center on St. Helena Island was the first 
school for freedmen.
    Quaker missionaries came to Beaufort in the wake of the Union 
Army's capture of the Lowcountry in South Carolina in 1862. They came 
to a strange land, to a downtrodden people, with a mission of education 
and advancement. The Penn Center was at the heart of the Port Royal 
Experiment--the famous ``proving ground for freedom.'' That experiment 
succeeded. Penn Center's work with the 10,000 Freedmen of this area 
became a model--a model for similar schools elsewhere, and a model that 
Abraham Lincoln looked to in shaping his Reconstruction policies.
    Penn Center has always been a jewel in the crown of South 
Carolina's cultural life. But, heretofore, it has been one of South 
Carolina's best-kept secrets. I can think of no better place to start 
the exploration into our Reconstruction heritage than at the Penn 
Center. From 1862 to this day, the Penn Center's great gift--its great 
message--to African Americans is that education matters, education can 
transform. By educating the nation on the foundations of freedom and 
civil rights during Reconstruction, we will also help future 
generations understand our cultural diversity, overcome the ignorance 
of racism and make another significant stride toward national unity.
                                 ______
                                 
    Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada

    The Cold War, which lasted 50 years, was the longest war in United 
States history, and the most expensive, costing trillions of dollars. 
At its conclusion, America emerged as the only remaining superpower in 
the world.
    Because we faced an enemy with tremendous nuclear capabilities, it 
was the most dangerous conflict our country ever faced. The threat of 
mass destruction left a permanent mark on American life and politics. 
Those that won this war did so in obscurity.
    What is often overlooked is that hundreds if not thousands of 
Americans died during the Cold War as America built its strategic 
nuclear arsenal and flew thousands of reconnaissance missions over 
enemy territory. Those who gave their lives in the Cold War have never 
been properly honored.
    In February, I introduced with Senator Ensign a bill that requires 
the Department of the Interior to conduct a study to identify sites and 
resources to commemorate heroes of the Cold War and to interpret the 
Cold War for future generations. Identical legislation that I 
introduced last year was favorably reported by the Energy and Natural 
Resources Committee and the Senate passed the bill by unanimous consent 
in the waning moments of the 107th Congress. However, the House failed 
to act on the bill prior to the adjournment of the Congress.
    My legislation directs the Secretary of the Interior, in 
consultation with the Secretary of Defense, State historic preservation 
offices, State and local officials, Cold War scholars, and other 
interested parties to oversee the inventory of Cold War sites and 
resources for potential inclusion in the National Park System; as 
national historic landmarks; or other appropriate designations.
    Obvious Cold War sites of significance include:

  <bullet> Intercontinental Ballistic Missiles;
  <bullet> flight training centers;
  <bullet> communications and command centers (such as Cheyenne 
        Mountain, Colorado);
  <bullet> nuclear weapons test sites (such as the Nevada test site); 
        and
  <bullet> strategic and tactical resources.

    Perhaps no other state in the Union has played a more significant 
role than Nevada in winning the Cold War. The Nevada Test Site is a 
high-technology engineering marvel where the United States developed, 
tested, and perfected a nuclear deterrent which is the cornerstone of 
America's security and leadership among nations.
    The Naval Air Station at Fallon is the Navy's premiere tactical air 
warfare training facility. The Air Warfare Center at Nellis Air Force 
Base has the largest training range in the United States to ensure that 
America's pilots will prevail in any armed conflict.
    In testimony before this committee last year, Steve Ririe, Chairman 
of the Silent Heroes of the Cold War National Memorial Committee, 
recounted the story of 14 men who perished in a plane crash on Mount 
Charleston in Nevada nearly half a century ago.
    These men were involved in a top-secret project, developing the U-2 
reconnaissance aircraft, the most advanced spy plane the world had ever 
seen. Their success was critical to ensuring the United States would be 
ready to face the challenges of a destabilized world. Experts have 
credited the U-2 with avoiding World War III. The U-2 is still vital to 
the American military today, and is being used to protect our interests 
around the globe.
    This story is just one of thousands of stories of men and women who 
worked in secret to bring us safely through the Cold War conflict. Our 
nation needs to recognize the veterans of the longest war in United 
States history--a battle which also had the highest stakes.
    I urge my colleagues to support this long overdue tribute to the 
contribution and sacrifice of those Cold War heroes for the cause of 
freedom.
                                 ______
                                 
     Prepared Statement of Hon. Ron Wyden, U.S. Senator From Oregon

    Mr. Chairman, I thank you for holding this hearing for the 
McLoughlin House National Historic Site, S. 601, and I offer my support 
for the passage of this legislation. Senator Smith and I are pleased to 
see this bill up for consideration.
    This bill would make the McLoughlin House and the nearby Barclay 
House, located in Oregon City, part of the Fort Vancouver National Park 
Service administrative site, highlighting the interwoven connection 
between Fort Vancouver, the fur trade and the beginnings of the Oregon 
Territory. Dr. John McLoughlin is known officially and fondly, as the 
``Father of Oregon.'' His compassion and generosity played a critical 
role in the settling of the Northwest by the Oregon Trail Pioneers.
    I thank Clackamas County, particularly John Salisbury and the 
McLoughlin Memorial Association, for all of their hard work to preserve 
this Oregon treasure. Additionally, I thank Tracy Fortmann with the 
National Park Service at Fort Vancouver for her advocacy on behalf of 
the McLoughlin House. Mayor Alice Norris and the former mayors of 
Oregon City who have worked together to bring this legislation to the 
attention of the Oregon delegation deserve our thanks as well.
    I would also like to submit for the record, letters of support from 
the North Clackamas County Chamber of Commerce, the McLoughlin Memorial 
Association, the City of Oregon City, the City of Gladstone, the Sons 
and Daughters of Oregon Pioneers, the City of Vancouver, and the 
Canadian Consulate General.
    Finally, I thank Representative Hooley for having the foresight to 
introduce this legislation in the House of Representatives in the 107th 
Congress and again in the 108th.
    Mr. Chairman, I, along with Senator Smith, thank you again for 
today's hearing and look forward to working with the Committee to pass 
this legislation.

       STATEMENT OF HON. ROBERT F. BENNETT, U.S. SENATOR 
                           FROM UTAH

    Senator Bennett. Thank you very much, Mr. Chairman. I 
appreciate your courtesy and your promptness in scheduling this 
hearing, and I will be so bold as to say this is probably the 
least controversial piece of legislation you will deal with 
this year.
    Senator Thomas. That is good.
    Senator Bennett. Because this is one where the Park Service 
gets a piece of land that it covets and a private entity, the 
landowner, Page One LLC in Utah, gets a piece of land that it 
covets, and the taxpayers on an accounting basis get a two-and-
a-half times financial benefit. That is, the land that is being 
transferred to the Park Service is worth two and a half times 
as much money as the land that is being transferred to the 
private individual or private corporation.
    The reason the private corporation is willing to do that is 
part public-spirited, because they recognize that the land they 
are transferring in the land swap to the Park Service has a 
tremendous tourist value. It is a viewscape of Lake Powell. 
They do have the rights to develop this land in its current 
boundary. They could put a 7-11 or a strip mall or anything 
else on it. It is right on Highway 89 that runs from Utah to 
Arizona, and they could get some benefit to it.
    But, frankly, it would spoil the view that the tourists get 
as they drive by and would seriously, seriously hamper the 
total experience as you are driving through that area looking 
towards Lake Powell.
    Page One does have some other commercial properties, 
development opportunities, in the area of the land they will be 
getting. So even though the appraiser says the land that they 
are giving is worth two-and-a-half times as much money on a 
straight land appraisal value, in terms of the economic 
potential the land that they are getting is more convenient to 
land that they currently own.
    So it is very much a win-win on both sides. It is supported 
as far as I know by everybody who has looked at it--the local 
community, the county officials. Not only the official elected 
people in the State of Utah but the various groups involved 
with the Park Service who are out to support Park Service 
activities that we would think of as part of the environmental 
community are also supportive because they want the viewscape 
that would be made available.
    I am told the Park Service is in favor of this. It to my 
knowledge has no opponents and as a win-win opportunity--I go 
back to my opening statement that it is probably the most 
noncontroversial item that you will take up.
    I want, as a matter of record, to pay tribute to 
Congressman Chris Cannon, who has worked hard to get this done 
on the House side, and I think if the Senate moves in an 
expeditious manner that it will pass the House and go on to the 
President without much difficulty.
    The map is available to you that shows the location of the 
land, and if you have any further questions about it I will be 
happy to do my best to respond.
    [The prepared statement of Senator Bennett follows:]

  Prepared Statement of Hon. Robert F. Bennett, U.S. Senator From Utah

    I thank Chairman Thomas and Senator Akaka and the Subcommittee on 
National Parks for holding today's hearing on S. 612, the Glen Canyon 
National Recreation Area Boundary Revision Act. I appreciate the 
Senate's consideration of this legislation, which will authorize a land 
exchange and revise the total acreage within the National Recreation 
Areas's (NRA) boundary while protecting the scenic view of Lake Powell 
as seen by those traveling along U.S. Highway Route 89. Additionally, I 
appreciate Representative Cannon's sponsoring of H.R. 788, the House 
companion bill to S. 612.
    As enacted into law, the enabling legislation for the Glen Canyon 
National Recreation Area inaccurately reflected the acreage within the 
NRA boundary. This legislation would correct the acreage ceiling by 
estimating the acreage within the NRA to be 1,256,000 instead of 
1,236,880.
    Secondly, this bill would authorize the Secretary of the Interior 
to exchange 320 NRA acres for 152 acres of privately owned land in Kane 
County, Utah. Currently, Page One L.L.C. owns 152 acres between U.S. 
Highway 89 and the southwestern shore of Lake Powell. This private land 
provides a breathtaking view of Lake Powell from Highway 89, which is 
the main viewshed corridor between the highway and the lake. This land 
also encompasses three highway access right-of-ways and a developed 
culinary water well. In an effort to protect this viewshed and better 
manage its boundaries along its most visited entrance, the National 
Park Service (NPS) has been negotiating with Page One to exchange 370 
acres of NRA lands for these 152 acres. The approximate value of the 
NRA lands is $480,000 whereas the private land's appraised value is 
$856,000. Page One has declared its intention to donate the balance of 
the appraised value to the NPS.
    I commend Page One for their willingness to donate the balance of 
the appraised value to the NPS. This generosity is truly laudable and 
serves to further highlight the high level of support for the goals of 
this bill. While this land exchange would result in a significant 
benefit to the federal government because of the donation, it should be 
noted that this level of generosity is not a prerequisite for a land 
exchange to be deemed in the public interest.
    By authorizing this land exchange, this bill will allow the NPS to 
preserve and better manage the corridor between the park and Highway 
89, which affords such a scenic view of Lake Powell. This boundary 
change would not add any facilities, increase operating costs, or 
require additional staff and as such, it will not add to the NPS 
maintenance backlog.
    Because of the common interest in preserving this scenic corridor 
from development, this legislation has garnered the support of the 
administration, the Kane County Planning and Zoning Commission, the 
National Parks Conservation Association, and the Southern Utah Planning 
Advisory Council. In light of the benefits provided by and community 
support for this proposal, I look forward to working with my Senate 
colleagues and the administration to pass this legislation this year.

    Senator Thomas. All right, sir. Well, we certainly thank 
you. It does sound like it moves us forward and is something 
most everyone who participates in benefits.
    Was there also a correction of acreage within the NRA in 
your bill?
    Senator Bennett. The original assumption was that the 
private landowner would receive 320 acres--it is actually 370--
and that the Park Service would receive I believe 120. It is 
going to be 122 acres.
    Senator Thomas. I see.
    Senator Bennett. So there is some correction in that, but 
it is not major and does not change the nature of the deal in 
any way.
    Senator Thomas. I guess I had the information that this 
legislation in a separate kind of an issue, but in the same 
bill, actually corrects the total acreage in the resource. It 
is just a correction, I believe.
    Senator Bennett. Yes, it is a correction. The map 
demonstrates how the current national recreation boundary gets 
changed.
    Senator Thomas. Right.
    Senator Bennett. It gets changed along Highway 89 so that 
now the boundary of private land stops at Highway 89 and that 
which is to the north and the east of Highway 89 then goes to 
the Federal Government.
    Senator Thomas. All right, sir. Thank you very much. We 
will seek to move this along and I appreciate your efforts at 
trying to strengthen and improve our Park Service.
    Senator Bennett. Thank you, Mr. Chairman. We appreciate 
your cooperation.
    Senator Thomas. Let us see. We had thought that we would 
have some other members and I suspect they may come in later. 
And in fact, we have one right now. Senator Smith, did you have 
a bill here, I believe. Would you care to go ahead and share 
your statement with us?

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Mr. Chairman, for holding today's 
hearing on a range of bills, but specifically including S. 601, 
the McLoughlin House National Historic Site Act.
    Senator Wyden and I jointly agreed to introduce this 
legislation where, when we were out on our own version of the 
Oregon Trail, we have held joint town hall meetings throughout 
Oregon, but in Oregon City specifically this bill or this issue 
was raised to us. It would authorize the Secretary of the 
Interior to acquire the McLoughlin House National Historic Site 
in Oregon City, Oregon, for inclusion in the Fort Vancouver 
National Historic Site.
    I see no more fitting tribute for the man named the father 
of Oregon. Dr. John McLoughlin is a revered figure in my home 
State. He is one of the two Oregonians honored in Statuary 
Hall. He was the superintendent of the British Hudson Bay 
Company at Fort Vancouver in Washington State in the early 
1800's. The Hudson Bay Company was the largest trading center 
west of the Rockies prior to the California Gold Rush. In that 
role, Dr. McLoughlin provided the first America pioneers 
arriving on the Oregon Trail with supplies that helped them 
survive their first winter.
    When the provisional government was first established by 
the settlers in the Willamette Valley, Dr. McLoughlin was the 
undisputed governor of the vast area bounded by the Rocky 
Mountains on the east, the Mexican territory, now California, 
on the south, the Pacific Ocean on the west, and the Russian 
settlements on the north.
    Dr. McLoughlin later moved to Oregon City, welcoming and 
provisioning missionaries and settlers, encouraging school and 
church instruction, and providing the only medical services in 
the region. His early services as mayor of Oregon City, in 
addition to his many other contributions, allowed him to define 
the Oregon country. Our State today is a reflection of his 
founding service.
    To preserve Dr. McLoughlin's legacy, the McLoughlin 
Memorial Association was created in 1909 to preserve his home. 
In 1941, Congress designated the McLoughlin House as a national 
historic site, the first in the West.
    I am joined by all the members of the Oregon Congressional 
delegation, as well as Senator Cantwell, in supporting the 
McLoughlin House National Historic Site Act. We should protect 
and promote Dr. McLoughlin's legacy of economic development and 
local charity.
    Linking the McLoughlin House to Fort Vancouver gives a more 
complete picture of the life of the father of Oregon and will 
provide more resources for people to learn from a man whose 
benevolence should be emulated today.
    Without objection, I would like to offer into the record 
several letters provided by Oregonians supporting this 
legislation, including the president of the McLoughlin Memorial 
Association and the Mayor of Oregon City.
    Mr. Chairman, along with Senator Wyden, we thank you for 
holding today's hearing and hope to gain the committee's 
support for this legislation.
    Senator Thomas. Thank you very much, sir.
    From information we have, I am not certain. The house now 
has been operated as a historical site by a private 
organization?
    Senator Smith. Correct.
    Senator Thomas. This proposal would direct the Park Service 
to purchase the building, is that it?
    Senator Smith. Yes, and have it as part of several sites on 
both sides of the Columbia River to be a part of the whole 
story, Fort Vancouver being the other side.
    Senator Thomas. So it would be managed then by the Park 
Service?
    Senator Smith. Right.
    Senator Thomas. Do you know the cost of the purchase? There 
seem to be two different numbers in our background material.
    Senator Smith. Yes, it is about $400,000.
    Senator Thomas. $400,000. And that would be to purchase it 
from the group that has----
    Senator Smith. The association.
    Senator Thomas. The association. Okay.
    Senator Smith. And it is today in a fairly dilapidated 
state, I am afraid, because they simply lack the resources to 
maintain it as, frankly, it ought to be maintained.
    Senator Thomas. Someone gave me a picture of John 
McLoughlin. I think by looking at that one would not say no to 
John McLoughlin.
    [Laughter.]
    Senator Smith. A stern visage.
    Senator Thomas. I should say.
    All right, fine. Thank you, sir. We appreciate that.
    Oh, Representative Solis, great. Thank you for joining us.
    Ms. Solis. Thank you.
    Senator Thomas. Did not see you come in.
    Ms. Solis. Yes.
    Senator Thomas. Are you prepared to go ahead with your 
statement, please?

               STATEMENT OF HON. HILDA L. SOLIS, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Ms. Solis. Thank you, Chairman Thomas. It is great to be 
here again this year to speak to you about the San Gabriel 
River Watershed Study Act that has now been introduced by 
Senator Barbara Boxer as S. 630. I am the House sponsor, as you 
know, of the companion bill that we presented to this committee 
I believe some time ago, and it did pass our House unanimously 
in March.
    The bill directs the Department of the Interior to study 
ways for more than 2 million people that reside around the San 
Gabriel Valley and the length of the upper portion of the river 
to preserve, restore, and create recreational space. The open 
and green space will not only improve the environmental 
landscape, but it will improve the health and surrounding 
communities for future generations. I say that because the San 
Gabriel community there that I represent has different 
challenges--a lot of blighted areas, low income. Many of our 
residents there have higher incidence of asthma, diabetes, 
infant mortality, birth defects, and even cancer. In Los 
Angeles County, where this area is located, neighborhoods back 
in the 1990s averaged around $20,000 a year, and it was known 
that less than half an acre park land was available for every 
1,000 residents.
    So you could imagine how hard and difficult it is for 
families and children to be able to have an open park space 
available for them to convene on their Saturdays or Sunday 
afternoons. Very little of it--most of the community there is 
paved over with cement.
    Of course, this is not the case with the higher income 
communities that surround the area. Incomes above $40,000 and 
higher have much more access to open space. So it is somewhat 
of a lopsided situation there with respect to socioeconomic 
background as well as ethnicity.
    What I would like to say today is that the bill that we 
passed in the House is identical to the Senate bill that is now 
being presented to you today. We did go through some major 
changes in terms of modifying the bill so that now we are 
looking primarily at what kind of resource study could be done 
on this particular area.
    We also kind of bifurcated the program so that we do not go 
into areas of the river that are cemented over, so to speak. So 
we are looking at the soft-bottom part of the San Gabriel 
River, which for many purposes is still natural, where you can 
still see wildlife roam and there is still natural habitat to 
be seen there. I would ask for your consideration of this 
proposal and thank the gentlewoman, Senator Barbara Boxer, for 
her leadership and commitment to support this piece of 
legislation.
    [The prepared statement of Representative Solis follows:]

      Prepared Statement of Hon. Hilda Solis, U.S. Representative 
                            From California

    Thank you Mr. Chairman, I am here today to testify in support of S. 
630, the San Gabriel River Watersheds Study Act, introduced by Senator 
Barbara Boxer. I am the House sponsor of the companion bill and am 
pleased to inform you that it passed the House unanimously in March.
    This bill directs the Department of Interior to study ways for the 
more than 2 million people that reside in the San Gabriel Valley to 
preserve, restore and create recreational space. Open and green space 
will not only improve the environmental landscape, it will also improve 
the health of the surrounding communities and future generations. For 
example, urban centers, similar to the San Gabriel Valley, tend to have 
greater incidences of cardiovascular disease, asthma, diabetes, infant 
morality, birth defects and cancer.
    Even our open space tends to favor wealthier neighborhoods. In Los 
Angeles neighborhoods where household income averaged less than $20,000 
in the 90s, there was less than a half-acre of parkland for every 1,000 
residents. The ratio was more than 40 times higher--21.2 acres for 
every 1,000 people--in neighborhoods where household incomes were 
$40,000 or higher.
    Park access was similarly lopsided when broken down by race. 
Majority white neighborhoods had 95.7 acres of parkland for every 1,000 
children, compared with 5 acres in Latino areas, 2.9 acres in African-
American neighborhoods and 6.3 acres in Asian-American areas. It is 
time for us to look at ways to make sure that everyone has access to 
open and recreational space regardless of the their socioeconomic 
background and ethnicity. An identical bill was passed out of this 
committee and on the Senate floor during the 107th Congress as part of 
a California Omnibus Parks package.
    Unfortunately, because another unrelated section of the omnibus 
bill did not mirror the House passed version, the bill was not sent to 
the President. I am hopeful that this committee will again favorably 
report this bill in the near future so that the study can begin and we 
can start planning for the future of open and green space in the San 
Gabriel Valley.
    Finally, I want to thank my good friend, Senator Boxer, for her 
leadership on this issue. Thank you, Chairman Thomas and Ranking Member 
Akaka.

    Senator Thomas. Thank you very much.
    Speaking of the Senator, here she is.
    Senator Boxer. Thank you so much, Mr. Chairman.
    Senator Thomas. Go right ahead.

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Boxer. Sorry I am running just a tad late.
    It is very nice to see Congresswoman Hilda Solis. I am 
proud to work with her on this legislation. S. 630 is a 
companion to H.R. 519. I have a very brief statement, knowing 
your schedule. I will just take a breath.
    Senator Thomas. You need the open space so you can breathe.
    Senator Boxer. We need a lot of open space instead of the 
stairs here.
    Hilda has shown tremendous leadership in helping move this 
important bill, which will greatly benefit our constituents. S. 
630 authorizes the Secretary of the Interior, in consultation 
with other appropriate Federal, State, and local government 
agencies, to conduct a 3-year study of the San Gabriel River 
watershed, which includes the San Gabriel Mountains.
    The study would make management recommendations on how best 
to preserve and protect the river, conserve wildlife habitat, 
and improve water quality. These recommendations would enhance 
recreational opportunities and improve downstream water 
quality. Although the Lower San Gabriel runs through a very 
congested urban area, this river provides important habitat for 
mammals and hundreds of resident and migratory species. It is 
one of the few open spaces available to over 2 million people.
    I do not know--I did not hear Congresswoman Solis's point. 
I am sure she made it. This is in her heart. She grew up around 
there and remembers it so well when she was a child. Mr. 
Chairman, I think you know--I am sure you visit Los Angeles--it 
is teeming with people and we have so little to really turn to 
near an urban area, and that is why this is so important.
    During consideration of the legislation last year, this 
committee made several changes, largely for the purposes of 
clarification. The bill before you reflects those changes that 
you made last year.
    Mr. Chairman, there has been strong bipartisan support for 
the San Gabriel River Watershed Study Act. At the State and 
local level, numerous officials have endorsed the legislation. 
In March of this year, the House of Representatives unanimously 
passed this legislation, and I know that you know that in the 
House if everybody gets together it is a rare moment in 
history, and they did it over this piece of legislation. So 
therefore I strongly urge you to report this bill favorably 
again and allow it to move forward as soon as possible. And I 
do appreciate the time that you are taking to hear from us 
today.
    Senator Thomas. Thank you very much.
    Senator Boxer. Thank you.
    Senator Thomas. What would you think of a unanimous 
agreement in the Senate?
    Senator Boxer. A what?
    Senator Thomas. That would really be rare, would it not?
    Senator Boxer. Well, that would be remarkable and I would 
look forward to it. Anyway, thank you so much for your concern.
    Senator Thomas. You are very welcome.
    Senator Boxer. Nice to see you, Senator.
    Senator Thomas. Now, this does include a number of kinds of 
lands, is that right--private, State, Corps of Engineers, 
forest?
    Senator Boxer. Yes.
    Senator Thomas. All these things.
    Senator Boxer. All the stakeholders, and that was outlined 
in detail very thoroughly because we wanted to make sure that 
everybody had a voice at the table.
    Senator Thomas. I see. And this is a study?
    Senator Boxer. Yes.
    Senator Thomas. And they would come back with it?
    Senator Boxer. Yes, it is, Mr. Chairman.
    Senator Thomas. I see. Well, I have to say that certainly 
your needs for open space and recreational space in California 
are quite different than they are in some other States because 
of the numbers of people that you have. So I appreciate your 
interest in causing us to do that. We will certainly look at 
it, and thank you for being here this morning.
    Senator Boxer. Thank you very much, Mr. Chairman.
    Ms. Solis. Thank you, Mr. Chairman.
    Senator Thomas. Why don't we go ahead and move forward. If 
more members appear, why, we will be more than happy to involve 
them. But waiting for that, we have the Associate Director of 
Park Planning, Facilities and Lands with us this morning, Sue 
Masica. How do you say it?
    Ms. Masica. ``MASS-ick-uh.''
    Senator Thomas. ``MASS-ick-uh.'' Welcome.

STATEMENT OF SUE MASICA, ASSOCIATE DIRECTOR FOR PARK PLANNING, 
FACILITIES AND LANDS, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Masica. Thank you, Mr. Chairman.
    Senator Thomas. We are very glad to have you here and I 
hope that you will comment and give us, to the extent that you 
can, the agency's position on these bills.
    Ms. Masica. Thank you, Mr. Chairman. Since you have our 
written testimony and it will be provided in the record, I will 
briefly summarize our position on these eight pieces of 
legislation.
    Senator Thomas. Great.
    Ms. Masica. S. 452 directs the Secretary to conduct a Cold 
War theme study of sites and resources associated with this 
period in our history, and we support the bill. The bill as 
introduced does include changes that were recommended by the 
administration in the last Congress. The Department of Justice 
has raised some concerns regarding the recommendations clause 
and language in section 1(b) directing the Secretary to 
identify sites for which potential inclusion in the National 
Park System should be authorized.
    S. 500 directs a study of sites in Beaufort, South 
Carolina, related to the Reconstruction era and it includes 
both a special resource study for Beaufort and then a broader 
theme study for the Reconstruction era, and we support that 
legislation also, with two suggested amendments: one to clarify 
that the special resource study should be for the county, not 
just for the historic district, because some of the sites that 
are identified are for the county as well, are broader than the 
historic district; and then also to make the special resource 
study provisions consistent with what we do for other special 
resource studies, to add that we should look at national 
significance as well as suitability and feasibility.
    S. 601 authorizes acquisition of the McLoughlin House 
National Historic Site in Oregon City to be included as part of 
Fort Vancouver National Historic Site, and we support that 
legislation also, with two clarifying amendments: one, that we 
do not have a national historic site within a national historic 
site; and the second to reference a revised map.
    The proposal on the McLoughlin House is consistent with the 
general management plan revision that is currently under way at 
Fort Vancouver and anticipated to be completed later this year.
    S. 612 authorizes a boundary adjustment for Glen Canyon 
National Recreation Area and corrects the authorized acreage of 
the park, as discussed by Senator Bennett, and we support that 
legislation also and believe that it is a good benefit to all 
the parties involved.
    The last piece of legislation is S. 630, the special 
resource study for the San Gabriel Watershed in California. We 
also support that legislation, but believe the bill should be 
amended to authorize a joint study with the Department of 
Agriculture since a significant portion of the study area 
encompasses the National Forest System lands in the Angeles 
National Forest.
    With that, I will be happy to respond to any questions that 
you might have.
    [The prepared statements of Ms. Masica follow:]

    Prepared Statements of Sue Masica, Associate Director for Park 
 Planning, Facilities and Lands, National Park Service, Department of 
                              the Interior

                                 S. 452

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 452. This bill would require 
that the Secretary of the Interior conduct a theme study to identify 
sites and resources associated with the Cold War and to recommend ways 
to commemorate and interpret that period of our nation's history.
    The Department supports this legislation as we believe that it is 
wholly appropriate for the National Park Service to undertake a study 
that will help ensure that the history of the Cold War era is preserved 
for future generations of Americans.
    S. 452 would require the Secretary of the Interior to conduct a 
National Historic Landmark theme study to identify sites and resources 
in the United States that are significant to the Cold War. The bill 
specifically provides that the study consider the inventory of Cold War 
resources that has been compiled by the Department of Defense and other 
historical studies and research on various types of military resources. 
It also requires the study to include recommendations for commemorating 
these resources and for establishing cooperative arrangements with 
other entities.
    We want to note that the study would not cover every resource that 
may be significant to the history of the Cold War as it affected our 
nation, since it would not include sites outside the United States such 
as U.S. installations in Germany or South Korea. It is necessary to 
limit the scope of the study to sites and resources within the United 
States, as S. 452 does, because we do not have the authority to 
identify resources that are beyond our borders for potential National 
Historic Landmark status.
    In addition to authorizing the theme study, S. 452 would require 
the Secretary to prepare and publish an interpretive handbook on the 
Cold War and to disseminate information gathered through the study in 
other ways. S. 452 would authorize appropriations of $300,000 to carry 
out the legislation.
    National Historic Landmark theme studies are funded from a variety 
of sources including, in some cases, the special resource study budget, 
which is about $1 million in FY 2003. There are 29 studies previously 
authorized by Congress that are being funded from the special resource 
study budget, nearly half of which will have at least some funding 
needs beyond Fiscal Year 2003. We transmitted 6 special resource 
studies to Congress in Fiscal Year 2002, and we expect to transmit 
about 15 this fiscal year or early next fiscal year. Our highest 
priority is to complete pending studies, though we expect to start 
newly authorized studies as soon as funds are made available.
    The National Historic Landmarks program was established by the Act 
of August 21, 1935, commonly known as the Historic Sites Act (16 U.S.C. 
461 et. seq.) and is implemented according to 36 CFR Part 65. The 
program's mission is to identify those places that best illustrate the 
themes, events, or persons that are nationally significant to the 
history of the United States and that retain a high degree of 
integrity. Potential national historic landmarks are often identified 
through theme studies such as the one that would be authorized by this 
legislation.
    Theme studies are not the same as special resource studies, which 
assess the suitability and feasibility of adding a site to the National 
Park System. Theme studies may identify sites that may be appropriate 
candidates for special resource studies, but these studies themselves 
do not evaluate sites for possible addition to the National Park 
System. Therefore, theme studies do not have the potential to lead 
directly to new operation, maintenance or other costs for the National 
Park Service.
    For example, in 2000, the National Park Service completed and 
transmitted to Congress a National Historic Landmark theme study on the 
history of racial desegregation of public schools, which was authorized 
by Public Law 105-356, the Act that established the Little Rock Central 
High School National Historic Site. Federal, state, and local officials 
across the country are now using this study to identify and evaluate 
the significance of numerous properties. So far, properties in nine 
states and the District of Columbia have been recommended for 
consideration as national historic landmarks. Currently the National 
Park Service is conducting several other theme studies, including one 
related to the history of the labor movement, another on the earliest 
inhabitants of Eastern North America, and another on sites associated 
with Japanese Americans during World War II.
    At the moment, the history of the Cold War has some presence in the 
National Park System and on the two lists of historic sites maintained 
by the National Park Service. The National Park System includes one 
unit related to the Cold War, the Minuteman Missile National Historic 
Site in South Dakota, which Congress established in 1999 to preserve 
and interpret the role of Intercontinental Ballistic Missiles in our 
nation's defense system.
    Out of 2,342 designated national historic landmarks, five recognize 
civilian or military aspects of Cold War history, and out of 
approximately 76,000 listings on the National Register of Historic 
Places, 17 (including the five landmarks) are related to the Cold War. 
The relatively small number of recognized sites is due in large part to 
the fact that the Cold War has only recently been viewed as 
historically important. With or without a theme study, these numbers 
would likely increase over time, and the Department of Defense could 
take steps on its own to identify these sites under their jurisdiction.
    National Historic Landmark program regulations require consultation 
with Federal, state, and local governments; national and statewide 
associations; and a variety of other interested parties. Through 
partnering with a national historical organization, using a peer-review 
process, and consulting with appropriate subject experts as well as the 
general public, the National Park Service would ensure that the 
broadest historical perspectives are represented in any study it 
undertakes.
    In addition, we have been informed by the Department of Justice 
that the provisions of the bill that would require the Secretary of the 
Interior to make recommendations to Congress concerning federal 
protection for Cold War sites appear to violate the Recommendations 
Clause of the Constitution, which reserves to the President the power 
to decide whether it is necessary or expedient for the Executive Branch 
to make legislative policy recommendations to the Congress. The 
Administration would be pleased to provide language to remedy the 
bill's constitutional defects.

                                 S. 500

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 500. This bill directs the 
Secretary of the Interior to study certain sites in the historic 
district of Beaufort, South Carolina, relating to the Reconstruction 
Era of United States history.
    The Department supports S. 500, with the amendments described in 
this testimony. On June 20, 2002, the Department testified in support 
of S. 2388, a similar bill, with suggested amendments. Several of the 
amendments were adopted and S. 500 is almost identical to S. 2388 as 
passed by the Senate in the 107th Congress.
    The cost of the studies should be $350,000 for the theme study and 
$250,000 for the special resource study, although the final cost of the 
special resource study may be less due to some degree of examination 
that the Beaufort area sites would receive as a part of the larger 
theme study. National Historic Landmark theme studies are funded from a 
variety of sources including, in some cases, the special resource study 
budget, which is about $1 million in FY 2003. There are 29 studies 
previously authorized by Congress that are being funded from the 
special resource study budget, nearly half of which will have at least 
some funding needs beyond Fiscal Year 2003. We transmitted 6 special 
resource studies to Congress in Fiscal Year 2002, and we expect to 
transmit about 15 this fiscal year or early next fiscal year. Our 
highest priority is to complete pending studies, though we expect to 
start newly authorized studies as soon as funds are made available.
    S. 500 authorizes the Secretary of the Interior to conduct a 
special resource study of historical sites in the historic district of 
Beaufort, South Carolina, relating to the Reconstruction Era. The study 
would evaluate the sites' national significance and the suitability and 
feasibility of designating them as a unit of the National Park System. 
The bill specifies that the study be conducted in accordance with P.L. 
91-383 (16 U.S.C. 1a-1 et seq.), which contains the criteria for 
studying areas for potential inclusion in the National Park System, 
with the study to be completed within three years after funds are made 
available.
    In addition, the Secretary is authorized to conduct a national 
historic landmark theme study to identify sites and resources in the 
United States that are significant to the Reconstruction Era. The study 
will include recommendations for commemorating and interpreting sites 
and resources that should be nominated as national historic landmarks 
and sites for which further study for potential inclusion in the 
National Park System should be authorized. This study is also to be 
concluded within three years after funds are made available. Although 
historians generally view the Beaufort sites that would be studied 
under S. 500 as historically significant, the National Park Service has 
not determined how significant these sites are in comparison to other 
sites associated with Reconstruction. The theme study would help 
provide that information.
    The Reconstruction Era is generally considered to be the period 
between 1863, when the Emancipation Proclamation took effect, and the 
withdrawal of Federal troops from the South following the Compromise of 
1877 that resolved the contested presidential election of 1876. The 
term ``Reconstruction'' reflects both the literal rebuilding of the 
war-ravaged South and the more metaphorical rebuilding of the Union 
following the divisive and destructive conflict. It was a 
controversial, difficult, and violent period in American history 
characterized by the adoption of new constitutional amendments and 
laws, the establishment of new institutions, and the occurrence of 
significant political events all surrounding the efforts to 
reincorporate the South into the Union and to provide newly freed 
slaves with political rights and opportunities to improve their lives.
    The Beaufort, South Carolina area contains a number of sites that 
are associated with events and individuals significant to the 
Reconstruction Era. Among these are the Penn School on St. Helena 
Island, the location of an important educational experiment in that 
era; the Freedmen's Bureau, located at Beaufort College, where the 
Federal Government conducted official business regarding emancipated 
slaves; the Freedman's Village of Mitchellville on Hilton Head Island; 
and sites associated with Robert Smalls, an African-American who served 
in the U.S. House of Representatives during the Reconstruction Era.
    The Department recommends some clarifying amendments to S. 500. We 
recommend that the title, Section 1, and the definition for Study Area 
in Section 2 be changed to reflect that the study would center on sites 
in Beaufort County, South Carolina, rather then the historic district 
of Beaufort. As drafted, the bill defines the study area as sites in 
the historic district of Beaufort, but then it identifies several sites 
to be studied that are outside of the city of Beaufort.
    We also recommend that the special resource study be required to 
determine the ``national significance'' of the area as well as its 
suitability and feasibility for inclusion in the National Park System. 
This change would be consistent with P.L. 91-383, as amended by the 
National Park Service Omnibus Management Act of 1998 (P.L. 105-391).
    The text for these recommended amendments follow.
Proposed Amendments, S. 500
    Page 1, Line 4, insert ``County'' after ``Beaufort''.
    Page 2, Line 3, strike ``the historic district of''.
    Page 2, Line 3, insert ``County'' after Beaufort''.
    Page 2, Line 22, strike ``assess the suitability'' and insert 
``assess the national significance, suitability,''.
    Amend the title to read, ``To direct the Secretary of the Interior 
to study certain sites in Beaufort County, South Carolina, relating to 
the Reconstruction Era.''

                           S. 601 & H.R. 733

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 601 and H.R. 733, similar 
bills that would authorize the Secretary of the Interior to acquire the 
McLoughlin House National Historic Site in Oregon City, Oregon, for 
inclusion in the Fort Vancouver National Historic Site in the state of 
Washington. H.R. 733 passed the House on April 8, 2003.
    The Department supports both S. 601 and H.R. 733, if amended in 
accordance with this statement. We believe that the McLoughlin House 
National Historic Site, which is currently an affiliated area of the 
National Park System, would be an appropriate addition to Fort 
Vancouver National Historic Site, but we think that the legislation 
should be clarified with respect to the name change that would need to 
be made to the McLoughlin House if it is acquired by the National Park 
Service.
    The McLoughlin House is located in Oregon City, Oregon, southeast 
of Portland, along the dramatic Willamette River Falls. It was the home 
Dr. John McLoughlin built and lived in from 1847, after his retirement 
from the Hudson's Bay Company's operations at Fort Vancouver, until his 
death in 1857.
    John McLoughlin is one of Oregon's most revered historical figures. 
Known as the ``Father of Oregon,'' he played a major role in the 
transformation of Oregon Country from British-controlled fur-trapping 
territory to United States-controlled agricultural settlement lands in 
the early to mid 19th Century. Born in Quebec, McLoughlin moved west, 
became involved in the fur trade, and came to preside over the vast 
territory claimed by Hudson's Bay Company and its operations 
headquartered at Fort Vancouver, in what would become the state of 
Washington. McLoughlin served as Chief Factor of Fort Vancouver from 
1825 until 1845, and under his leadership the fort became the center of 
political, cultural, and commercial activities in the Pacific 
Northwest. He was instrumental in maintaining peace between Great 
Britain, which claimed the territory, and the settlers who came to 
Oregon Country from the United States, and the Native American tribes 
in the region.
    As the fur trade declined and American settlers began arriving to 
settle in Oregon Country in large numbers, McLoughlin turned his 
attention to providing aid and supplies to them. These migrants had 
reached the end of their arduous journeys along the Oregon Trail, and 
many were sick, starving and ill-equipped to begin a new life. He aided 
them despite the Hudson's Bay Company's policy of discouraging 
agricultural settlement in the region.
    When McLoughlin retired from the Hudson's Bay Company in 1845, he 
bought land he had claimed for the company across the Columbia River, 
in Oregon City, which was beginning to emerge as a center of industry 
and commerce. He built an elegant home where he and his wife Marguerite 
continued to help new settlers in need. Because of McLoughlin's 
generosity, his house became known as the ``house of many beds.'' After 
becoming a U.S. citizen in 1851, McLoughlin became Mayor of Oregon City 
and increased his acts of philanthropy throughout the region.
    The McLoughlin House has retained its historic integrity as one of 
the earliest examples of its architectural style in the Pacific 
Northwest. It was moved from its original location elsewhere in Oregon 
City nearly a century ago because of industrial encroachment and now 
sits on land McLoughlin donated to Oregon City. The McLoughlin House 
National Historic Site, which also includes the home of Dr. Forbes 
Barclay, an associate of McLoughlin's, serves as a focal point for 
education and tourism in the Portland area and is used to teach 
students about the early European settlement of the Pacific Northwest. 
The site continues the story that begins at Fort Vancouver of the 
settling of Oregon Country facilitated by John McLoughlin.
    The McLoughlin House was designated a national historic site in 
1941 by the Department of the Interior, making it the first such site 
in the western United States. That same year, the Department entered 
into a cooperative agreement with the McLoughlin Memorial Association, 
which had owned and managed the site since 1909, for operation of the 
home. In 1966, the responsibility for providing assistance to the site 
was delegated to Fort Vancouver National Historic Site. The house and 
grounds maintenance, as well as curatorial assistance, at the 
McLoughlin House is currently provided by staff at Fort Vancouver.
    Although we are unaware of any formal action that designated the 
McLoughlin House an affiliated area of the National Park System, the 
National Park Service has considered this site one of its affiliated 
areas for many years because of the 1941 designation and cooperative 
agreement. Affiliated areas are significant properties that are neither 
federally owned nor directly administered by the National Park Service 
but which receive technical or financial aid from the National Park 
Service. Some have been designated as affiliated areas by Congress; 
others, like the McLoughlin House, have been designated national 
historic sites by the Secretary of the Interior under the authority of 
the Historic Sites Act of 1935.
    As part of the General Management Plan revision for Fort Vancouver 
National Historic Site, the National Park Service studied the 
possibility of adding the McLoughlin House National Historic Site to 
Fort Vancouver and found that because of the strong thematic connection 
to the fort and the feasibility of managing this unit, it would be an 
appropriate addition. There is broad support for this action. The 
proposal to add the McLoughlin House to Fort Vancouver National 
Historic Site was generated during public scoping meetings on the 
General Management Plan held in Oregon City. Support is also evident 
from the comments the National Park Service received earlier this year 
during the public comment period on the Draft General Management Plan 
and Environmental Impact Statement. We expect to finalize the revised 
General Management Plan by the end of this year.
    If S. 601 or H.R. 733 is enacted and funds are made available for 
acquisition of the McLoughlin House, the National Park Service would 
acquire the site and the contents of the McLoughlin House and Barclay 
House. The estimated acquisition cost of the historic site real 
property is $445,000. The furnishings and artifacts from the two 
houses, estimated to be worth more than $200,000, would be donated to 
the National Park Service by the McLoughlin Historical Association. 
Oregon City, which owns the land used for the McLoughlin House site, 
would donate a permanent easement to the National Park Service in order 
to provide the Service with the access needed for the management, 
protection, and public use of the site. A proposal for this donation, 
incidentally, was approved through a 2001 referendum supported by more 
than 80 percent of the Oregon City voters. We estimate that operation 
and maintenance of the site would add $285,000 to Fort Vancouver's 
approximately $1 million annual operation and maintenance costs, an 
increase of about 28 percent.
    The McLoughlin Memorial Association would continue to play an 
important role at the McLoughlin House site. The Association plans to 
use most of the proceeds from the sale of the house, not including a 
small portion needed to pay off debt, to establish an endowment fund to 
assist in the long-term preservation of the site and development of 
educational programs throughout the Portland/Vancouver region. The 
Association also plans to pursue private-sector support for educational 
programming, site preservation, and other activities to support the 
site.
    While we support the intent of both bills, we recommend amending 
the legislation to ensure that once the McLoughlin House National 
Historic Site is added to Fort Vancouver National Historic Site, the 
McLoughlin House no longer has ``national historic site'' in its title. 
We are concerned that without a clarification in the language, we would 
be creating a national historic site within a national historic site. 
Along with the clarifying language, we would like the legislation to 
reference a revised map for the McLoughlin House. We would be pleased 
to work with the committee to amend the bill's language.

                           S. 630 & H.R. 519

    Mr. Chairman, thank you for the opportunity to present the 
Department's views on S. 630 and H.R. 519. These bills, which are 
virtually identical, would authorize the Secretary of the Interior to 
conduct a special resource study of the San Gabriel River Watershed in 
Southern California. H.R. 519 passed the House on March 19, 2003.
    Special resource studies assess resources in the study area, 
determine whether they meet the criteria for addition to the National 
Park System, and offer alternative recommendations for their 
protection. S. 630 and H.R. 519 would authorize the study of the San 
Gabriel River Watershed, which runs south from the San Gabriel 
Mountains through a heavily urbanized part of Los Angeles County. The 
Department supports studying this area. However, because the study area 
includes a significant amount of United States Forest Service lands, we 
believe that the bill should be amended to authorize a joint study with 
the Department of Agriculture.
    At first glance, many may view this river as simply a concrete-
lined ditch, however, it provides an important opportunity for low-
impact recreation for many urban residents. Several successful efforts 
have already been undertaken to provide bikeways and hiking areas along 
the banks of the San Gabriel. Additionally, small tracts of green space 
have been acquired to provide playgrounds, picnic areas, bicycling and 
walking trails. Native vegetation has been restored, repairing habitats 
and beautifying the landscape in many areas.
    The study area specified by S. 630 and H.R. 519 includes the San 
Gabriel River and its tributaries north of and including Santa Fe 
Springs, and the portion of the San Gabriel Mountains that lies within 
the jurisdiction of the San Gabriel and Lower Los Angeles Rivers and 
Mountains Conservancy (RMC). The study would assess low-impact 
recreation and educational uses, access to urban open space, habitat 
quality, wildlife and habitat restoration and protection, and watershed 
improvements within that area.
    The watershed of the San Gabriel River contains important natural 
resources, which are disappearing throughout Los Angeles County. 
Continuous greenbelt corridors provided by the river serve as habitat 
for breeding, feeding, resting or migrating birds and mammals, which 
allows migration to take place through developed areas. The rugged 
terrain of the higher reaches of the watershed contains different 
habitats including rock outcroppings and vegetation native to the 
Pacific coast foothills.
    This area also has a rich cultural heritage, which is evident by 
the large number of historically significant properties within the 
proposed study area. Among them is the Mission San Gabriel Archangel, 
founded in 1771 by the Spanish missionaries who were moving up the 
coast of California.
    The San Gabriel River Watershed contains part of the Angeles 
National Forest and several state, county and local parks. The proposed 
study would look at opportunities for establishing recreational trails 
between these natural areas and the communities in the region. The 
estimated cost of the study is $375,000. In FY 2003, about $1 million 
was provided for special resource studies. There are 29 studies 
previously authorized by Congress that are being funded from the 
special resource study budget, nearly half of which will have at least 
some funding needs beyond FY 2003. We transmitted 6 special resource 
studies to Congress in FY 2002, and we expect to transmit about 15 this 
fiscal year or early next fiscal year. Our highest priority is to 
complete pending studies, though we expect to start newly authorized 
studies as soon as funds are made available.
    Recognizing the limitation of federal resources for acquiring and 
managing land, the study would have to examine a number of alternatives 
for protecting resources in the area. Alternatives to federal 
management of resources that are often considered in a special resource 
study for this type of area include national trail designations, 
national heritage area designations, and the provision of technical 
assistance to state and local governments for conservation of rivers, 
trails, natural areas, and cultural resources. A study of an area where 
land ownership and jurisdictional boundaries are as complex as they are 
in the San Gabriel River Watershed would likely emphasize public-
private partnerships.
    In conducting the study, the National Park Service would work 
closely with the RMC, which was established in 1999 as an independent 
agency within the Resources Agency of the State of California. The RMC 
has brought diverse groups together to work in partnership to protect 
the valuable resources within the area under their jurisdiction.
    Consideration of the issues and options available for protecting 
resources in a large, heavily populated area with stakeholders at all 
levels of government calls for extensive public meetings, comment 
periods, and analysis. On April 8, 2003, the Senate passed S. 347, 
which would authorize a study of the Rim of the Valley Corridor, also 
in the Los Angeles metropolitan area. That proposed study and the 
proposed San Gabriel River Watershed study, both of which would affect 
large, diverse constituencies, would be similar studies conducted in 
relative close proximity. If both bills are enacted in a close 
timeframe, the National Park Service would want to coordinate the two 
studies to achieve efficiencies in costs and staff resources, and to 
minimize public confusion.

                           S. 612 & H.R. 788

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 612 and H.R. 788. These bills 
would revise the boundary of the Glen Canyon National Recreation Area 
in the States of Utah and Arizona.
    The Department supports S. 612 and the companion House legislation 
H.R. 788. The legislation would amend Public Law 92-593 and give the 
Secretary of the Interior the authority, through an exchange, to change 
the boundary of Glen Canyon National Recreation Area (``Park'') by 
adding approximately 152 acres and deleting 370 acres in Kane County, 
Utah. The current owner of the private property to be exchanged, Page 
One, LLC. (``Page One''), initiated this proposal and although the 
National Park Service (``Service'') has not yet appraised the parcels 
involved, the owner's appraisal indicates that the Service will receive 
lands with a higher value than those the Service would exchange, which 
should remove the need for any land acquisition funds.
    The bills would also revise the authorized acreage of the park from 
1,236,880 acres to 1,256,000 acres. This change would correct the total 
acreage within the park boundary that was incorrectly identified in the 
park's enabling legislation. Correction of the authorized acreage 
ceiling would not add any new facilities, increase operating costs, or 
require additional staffing.
    Since House passage of the H.R. 788 last March, we have learned 
through additional surveys, conducted by Page One, that the Page One 
exchange parcel identified as the Shoppman Land Exchange Parcel on the 
map entitled 'Page One Land Exchange Proposal' number 608/60573a-2002 
dated May 16, 2002 is closer to 122 acres than 152 acres. The acres 
that the Service would acquire are located east of Highway 89, 
approximately 5 miles south of Big Water, Utah and are contiguous to 
the existing park boundary. Both the Page One and Park exchange parcels 
are accurately reflected on the map. The lands that the Service would 
be authorized to exchange are located west of Highway 89 and are 
adjacent to privately owned lands. Although within the boundary of the 
recreation area, the 370 acres are physically and visually isolated 
from the rest of the recreation area by topographic features.
    Page One, the owner of the private land has had an appraisal 
completed on the lands that are proposed for exchange. If this 
legislation is enacted, the Service would conduct its own appraisal on 
the two parcels. However, the owner's appraisal determined that their 
parcel ($5,500 per acre for a total appraised value of $671,000), which 
the Service would receive, was worth approximately two and one half 
times more then the appraised value of the land within the NRA Land 
Exchange Parcel identified on the map ($750 per acre for a total 
appraised value of $277,500).
    S. 612 and H.R. 788 would also correct the acreage ceiling error 
stated in Public Law 92-593, the 1972 enabling legislation for Glen 
Canyon National Recreation Area. Public Law 92-593 incorrectly 
estimated Glen Canyon National Recreation Area's acreage within the 
boundary to be 1,236,880 acres. Using the same boundary identified on 
the map referenced in the 1972 enabling legislation, application of 
modern map reading and geographic information system technologies have 
determined that 1,256,000 acres more accurately reflects the amount of 
land within the 1972 boundary.
    S. 612 and H.R. 788 enjoy a broad cross section of support. The 
nearest communities to the lands proposed for exchange, Big Water, Utah 
and Page, Arizona, recognize the importance of protecting the National 
Recreation Area. Also, this exchange would provide an opportunity for 
private development at one of the main access points to lands held by 
the Utah School and Institutional Trust Lands Administration 
(``SITLA''). Such private development could enhance the 40,000 acres 
held by SITLA and is supported by the State of Utah and Kane County, 
Utah.
    As the House has passed H.R. 788 and the legislation is identical 
to S. 612 we would recommend passage of H.R. 788, in order to move this 
legislation expediently.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.

    Senator Thomas. All right. Well, thank you. You are very 
supportive today. That is good.
    Just a couple of questions on some of them here, like the 
Cold War study. Do you have any idea of how many sites? It 
seems like that is an awfully broad subject.
    Ms. Masica. We do not have a good idea on the number of 
sites specifically. One of the things that the study would do 
would establish sort of the registration requirements to help 
the researchers identify which sites tell them significant 
stories associated with the Cold War, and how many sites would 
potentially be eligible for a national historic landmark is one 
of the things that the study would enable us to do.
    Senator Thomas. I see. Have you had an opportunity to 
comment, receive comments, or ask for comments from Department 
of Defense or other agencies that would be involved?
    Ms. Masica. That is done within the administration in the 
process of the clearing of the testimony and so the Department 
of Defense did see the testimony and raised no objections to 
our position.
    Senator Thomas. I see. In broad terms--and I understand 
they have to be broad--as we expand the role of the Park 
Service in historic landmarks or historic sites or historic 
places and so on, have we been able to come up with some sort 
of a criteria, some sort of a standard? Is there any limit to 
how many of these things could be the responsibility of the 
Park Service? Is there any concern about that, and how do we 
know what might be eligible for that kind of a listing?
    Ms. Masica. Certainly I think the requirement that Congress 
enacted a couple of years ago now on special resource studies 
for potential units to be included in the system, the 
requirement that the study has to be authorized before we can 
proceed with the study, I think is an important threshold that 
requires us to then look at the three major criteria that we 
look at in that study process are national significance, the 
suitability of the resources that are there for inclusion, and 
then the feasibility for inclusion as a unit of the system.
    So that has certainly contributed to a pretty consistent 
scrutiny of proposed units to the Park System.
    Senator Thomas. Well, those are very broad descriptions, 
though. Suitability, what is the criteria for suitability? And 
I understand it is difficult, but frankly I am concerned that 
we need to define those things that have national significance 
in some manner, as opposed to rather localized things that 
perhaps ought to be done on a different level.
    I guess I do not expect you to know the answer, but I think 
we ought to give a little more thought to that, especially when 
we grapple every day with, well, from the Park Service we do 
not have enough resources to keep up the things that we have. 
Yet I do not know of any studies that have not been supportive, 
do you? Any studies that have said no, this does not qualify.
    Ms. Masica. Actually, I think the information I have in 
front of me says that during the past 2 years we have 
transmitted 12 studies to Congress and only 4 of those 12 made 
a positive finding about eligibility for some type of national 
designation. So it is not definitely a ``make it a unit of the 
system'' every time we study.
    Senator Thomas. I would like--would you give us a little 
more information on those numbers, just what they were and so 
on?
    Ms. Masica. Sure. Can we provide that for the record, Mr. 
Chairman?
    Senator Thomas. Fine, thank you.
    I have got some more questions, but, Senator Smith, do you 
have any?
    Senator Smith. No, thank you.
    Senator Thomas. This Beaufort study, South Carolina, this 
is S. 500. What is the Park Service role in the historic 
district currently?
    Ms. Masica. Right now we do not have any sort of a 
management role or operational role in that historic district. 
There are some properties that are in that district that are on 
the National Register, so with our authorities for managing the 
National Register program we might monitor them, but it is not 
an ongoing operational kind of role.
    The other activity that is under way in that area is that 
we were authorized and are conducting a special resource study 
of the low country Gullah culture, and some of that is in that 
Beaufort area. But again, that is not an operational or a 
management role.
    Senator Thomas. So this, the current role then, is simply 
basically to have listed these areas as sites?
    Ms. Masica. Correct.
    Senator Thomas. But no responsibility for financing them or 
managing them?
    Ms. Masica. That is correct.
    Senator Thomas. Do you anticipate that further sites would 
be handled in the same way? What do you anticipate to be the 
end product here?
    Ms. Masica. Again, I think that is part of what the study 
would enable us to investigate further, as to what the order of 
magnitude would be. I think the legislation, I think it is six 
or seven specific sites that we are supposed to look at for the 
special resource study. But the theme study is a much broader, 
encompassing.
    Senator Thomas. What would the cost be for this study, do 
you know?
    Ms. Masica. The estimate for the special resource study is 
about $250,000 and the estimate for the theme study is 
$350,000.
    Senator Thomas. When do you think that would take place?
    Ms. Masica. The fiscal 2004 budget request for our study 
activity is $500,000 in total nationwide, and we have others 
that we have not started yet that have been authorized.
    Senator Thomas. So if you were limited to the studies that 
would come under the $500,000, you would have probably less 
than two studies?
    Ms. Masica. I do not have the specifics right in front of 
me, but the total cost estimates for the number of studies that 
we have outstanding exceed the money that we will devote to 
studies in fiscal 2004.
    Senator Thomas. Do you know what that is, your estimate?
    Ms. Masica. I do not know if I have a specific. Estimates 
to complete currently authorized studies are about $910,000, so 
that is before any new ones are authorized.
    Senator Thomas. And there are several right here.
    Ms. Masica. That is right.
    Senator Thomas. What is the role of the Park Service in the 
McLoughlin House National Historic Site now?
    Ms. Masica. Presently it is a designated national historic 
site and it is managed as an affiliated area. So our role is 
some maintenance and curatorial assistance.
    Senator Thomas. Is there some management advantage to 
having the management of the house be done by the Fort 
Vancouver Historic Site group or is that the potential?
    Ms. Masica. That is I think the potential and what the 
proposal is. My recollection is that last year it was proposed 
that this would be--McLoughlin House would be a totally 
separate unit of the Park System, and we said from an 
operational efficiency and a management perspective it would be 
far smarter to combine it with Fort Vancouver on the other side 
of the river, and that is what the legislation proposes to do.
    Senator Thomas. So this is sort of an efficiency move?
    Ms. Masica. Yes, sir.
    Senator Thomas. In terms of management.
    Ms. Masica. Yes, sir.
    Senator Thomas. Okay. Glen Canyon; is there any opposition 
to this exchange? It seems like it is a benefit pretty much 
around.
    Ms. Masica. That is my understanding also. I am not aware 
of any opposition.
    Senator Thomas. How did they miss the acreage in the unit 
by 50,000 acres?
    Ms. Masica. Some people have said the Park Service does not 
know how to count and that might be yet another example of it. 
I do not know.
    My understanding is it has to do with the topography and 
the filling of the lake, and beyond that I will exhaust my 
technical capacity to answer that question.
    Senator Thomas. So that addition is simply an adjustment of 
a number that is inaccurate?
    Ms. Masica. Right, it is not adding any acreage. It is 
fixing the number from what was legislated in the early 1970's.
    Senator Thomas. Okay. Then the San Gabriel Watershed study. 
Is this sort of a different kind of a study for you to 
undertake? It seems like normally you sort of study something 
that is a little bit defined before you begin. Here it appears 
to be a rather broad concept.
    Ms. Masica. It certainly is an area that has multiple 
resources, but that is not unique for what we sometimes are 
asked to do. I think the Rim of the Valley one, which you have 
seen not that long ago this year, is in a similar situation. I 
think the important thing from our perspective is that one of 
the important values from special resource studies can be to 
help local communities identify what the resources are and what 
alternatives exist for protecting them and saving the resources 
and managing them in a way that fits the needs of the local 
community, and not just automatically assuming that the 
National Park Service is the answer to everything.
    Senator Thomas. You had I believe an estimate on one of 
your other studies. Do you have a cost estimate on this one?
    Ms. Masica. This one, the estimate I have been given is 
$375,000.
    Senator Thomas. Did I misunderstand? This is a longer 
study? Or one of them was. Wasn't it a 3-year study or 
something?
    Ms. Masica. Three years tends to be what most of them are, 
about what they take by the time we do the deploying the 
resources on the ground and getting the study under way and 
then allowing for all the appropriate consultation and 
communication with folks.
    Senator Thomas. And you have contacted the Department of 
Agriculture with regard to the Forest Service aspect of it?
    Ms. Masica. That is my understanding is part of the 
testimony clearance process, that that was the recommendation 
that was made, that they be involved also. I personally have 
not talked to them, but that is my understanding.
    Senator Thomas. And apparently the Corps of Engineers is 
involved as well?
    Ms. Masica. They would not be a co-lead on the study, but 
they would certainly be one of the affected parties that we 
would make sure we touch base with.
    Senator Thomas. Well, these probably are not the most 
controversial set of proposals that we have ever faced, but 
there is certainly merit in them. I appreciate that very much.
    Senator Smith, anything you would like to add?
    [No response.]
    Senator Thomas. Well, thank you very much. I think we have 
broken a record here this morning, I think, on time. But that 
is probably good. Thank you so much and we will look forward to 
working with you.
    Ms. Masica. Thank you, Senator.
    Senator Thomas. The hearing is adjourned.
    [Whereupon, at 10:35 a.m., the hearing was adjourned.]


                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

     Statement of Hon. Chris Cannon, U.S. Representative From Utah
    Thank you, Mr. Chairman, for considering S. 612 and its House 
companion, H.R. 788. I am grateful for the opportunity to come before 
the subcommittee today to express my strong support for this bill.
    Before I commence with my testimony, I want to take a quick moment 
to thank Senator Bennett for his leadership and hard work on this 
issue. As I'm sure the Members of this panel are aware, it would be 
hard to find a Senator more highly esteemed than Senator Bennett. The 
Senator's vast knowledge, deliberative demeanor, and quick wit are 
greatly appreciated by each Member of the Utah delegation. I want to 
publicly thank Senator Bennett for his dedication and tireless efforts 
on behalf of the State of Utah and for helping to move this legislation 
forward.
    S. 612 has two purposes. First, it revises the boundary of the Glen 
Canyon National Recreation Area by exchanging 152 acres of land owned 
by Page One LLC for approximately 370 acres of land within the National 
Recreation Area. This exchange will enable both entities to consolidate 
their properties and will make it possible for the Park Service to 
protect the scenic viewshed of Lake Powell from Highway 89.
    The second purpose of the bill is to increase the acreage ceiling 
for the National Recreation Area. The park's enabling legislation 
incorrectly identified the total acreage within the park boundary. This 
bill will correct that error.
    S. 612 is the result of years of discussion and negotiation between 
Page One and the National Park Service. The Park Service has been 
involved from day one. The local communities have also voiced their 
support for this bill. In addition, the Kane County Planning and Zoning 
Commission, the Southern Utah Planning Advisory Council and the 
National Parks Conservation Association all endorse this land exchange.
    It is in the common interest of the Glen Canyon community, the 
landowners, the National Park Service and the general public to 
preserve the view between Lake Powell and U.S. Highway 89 along this 
entrance corridor.
    I want to thank you again, Mr. Chairman, for the opportunity to 
testify in favor of this bill today. With that, I yield back the 
balance of my time.
                                 ______
                                 
   Statement of Hon. Darlene Hooley, U.S. Representative From Oregon

    Mr. Chairman, I would like to offer my support for the McLoughlin 
House Preservation Act, S. 601 or H.R. 733, which I introduced in the 
House. This historic house stands today as a reminder of the great 
contribution Dr. John McLoughlin made to the settlement of the Oregon 
Country.
    At six feet four inches, Dr. John McLoughlin cast a giant of a 
shadow on the early development of the Oregon frontier. For twenty-one 
years his powerful voice was the only influence of law and order over 
an empire two and a half times the size of Texas. He had absolute 
control, and he maintained it peacefully and profitably with a balanced 
sense of justice.
    With an overwhelming sense of compassion and generosity beyond 
reproach, it is little wonder that Native Americans regarded him as, 
``The Great White Eagle.'' John McLoughlin did indeed, walk taller and 
cast the greatest shadow that ever fell so humbly on the changing face 
of Oregon.
    Born in 1784 near Quebec, Canada, McLoughlin began his medical 
apprenticeship at age 14. In 1803, by the age of 19, he was granted his 
license to practice surgery and pharmacy. Soon after, Dr. McLoughlin 
was appointed medical officer for the North West Company, fierce 
competitor of the Hudson's Bay Company in the fur trade. He continued 
there until 1821, until its acquisition by Hudson's, for whom he 
continued working.
    In 1824, Dr. McLoughlin was sent to Fort George, now Astoria, 
Oregon, near the mouth of the Columbia River. Charged with establishing 
an administrative headquarters and supply depot for the expanding fur 
trading company, he also was tasked with creating a mercantile arm of 
the British government, with the goal of monopolizing the fur trade and 
maintaining peace among the numerous Indian tribes.
    Upon arrival, he found the existing facility to be run down, the 
farmland to be poor, and a location that was, in general, unsuitable 
for his responsibilities. To remedy these deficiencies, he moved the 
site northwest, and build a new settlement at Belle Vue Point, in what 
is now Washington State, and named it Fort Vancouver.
    The new fort was an imposing presence, at 750 feet by 450 feet and 
a 20-foot stockade. It contained all of the necessities for the 
settlement, with a school, library, pharmacy, chapel warehouses, 
smithy, and the largest manufacturing facility west of the Rockies. To 
the rear of the fort were fields of grain, vegetables, and an orchard 
for fresh fruits.
    Dr. McLoughlin maintained friendly relations with the local 
Indians, and, in 1829, when a visiting ship brought a terrible fever 
that spread like wildfire, he spent countless hours tending to the ill, 
trying to ease their suffering as much as he could. Despite his best 
efforts, the fever devastated the tribes, and killed more than 30,000 
over the next 4 years.
    Meanwhile, though, Fort Vancouver flourished under the guidance of 
Dr. McLoughlin. Even though he had no military forces, he was able to 
maintain peace and order through his personality and hard work. His 
good relations with the local Indians kept the peace on that front, and 
it was not until his departure that any unrest developed from that 
quarter. As a reward for his enlightened stewardship, Queen Victoria 
knighted him at Buckingham Palace in 1841.
    During the 1840s, the British came to the realization that 
preventing American settlers from homesteading in Oregon was all but 
impossible, but they tried their best to discourage settlers from 
beginning the trip. Tall tales of fierce Indians, unproductive land, 
and terrible weather conditions were spread far and wide.
    Though it violated Hudson's Bay Company policy, McLoughlin 
sympathized with the overwhelmed and often unprepared settlers. He 
extended credit so that they could purchase supplies, clothing and seed 
for planting; offered food to those who were hungry; and cared for 
those who took ill. This personal decision by Dr. McLoughlin, and the 
compassion that he showed to these settlers, proved critical to 
establishing American settlers and solidified U.S. claims to the 
territory.
    By 1845, Dr. McLoughlin's disgust for Hudson's policy towards 
American settlers was so great that he was unable to stay with the 
company. After his resignation, he purchased the company's land claim 
at Willamette Falls in Oregon City, and built an elegant white 
clapboard home for his family (The McLoughlin House), and took up 
residence there in 1846.
    McLoughlin remained a public figure during his retirement, and 
became a U.S. citizen in 1849. He donated land for a jail and female 
seminary, and in 1851 he was elected mayor of Oregon City. He died in 
his home only six short years later.
    In 1941, the McLoughlin House was designated a National Historic 
Site, the first one in the west, and in 1957, Dr. John McLoughlin was 
named ``Father of Oregon'' by the Oregon State Legislature.
    Clearly, Fort Vancouver and the McLoughlin House have a long and 
storied history together. The intent of my legislation is to see that 
history continued by expanding the boundaries of the Fort Vancouver 
National Historic Site to include the McLoughlin House National 
Historic Site.
    Currently, the McLoughlin House National Historic Site is 
maintained and managed by the non-profit McLoughlin Memorial 
Association. When this historic residence faced demolition in 1909, the 
Memorial Association was formed and money was raised to move the house 
to a public park atop the bluff, where it opened as a museum one year 
later.
    For nearly 100 years, the association has done admirable work to 
preserve and maintain this historic treasure that thousands of people 
visit annually. However, over the past several years, the association 
has been unable to raise the funds required to provide the needed 
maintenance and upkeep of the property that is now in jeopardy of 
falling into disrepair.
    The McLoughlin House National Historic Act would do what should 
have been done 60 years ago: include these properties as part of the 
National Park System (NPS). Rather than creating a new unit of the NPS, 
this legislation simply adds this historic treasure to the existing 
Fort Vancouver National Historic Site, which is already administered as 
part of the National Park System. I believe this addition will preserve 
in perpetuity the cultural, educational, and historical benefits of 
this historic site for future generations.
    I am proud of the wide-ranging support that this legislation has 
garnered: numerous city and county officials, the McLoughlin Memorial 
Association, and the entire Oregon Congressional delegation. The 
importance of this historic house to the community was demonstrated 
when the citizens of Oregon City approved, by more than 80 per cent, a 
ballot measure that grants the National Park Service an interest in the 
city property on which the McLoughlin House now sits to allow the NPS 
to administer the house.
    In closing, I would again like to thank everyone who has 
contributed to making this legislation possible, and I feel certain 
that this legislation will move swiftly through both Houses of Congress 
and to President Bush's desk. I look forward to the day when he signs 
this bill and the house of Oregon's Founding Father is preserved for 
our children and beyond.
                                 ______
                                 
        Statement on S. 500, Reconstruction History Partnership

    The Reconstruction History Partnership in South Carolina writes to 
support passage of S. 500, legislation that directs the Secretary of 
the Interior to study certain sites in the area of Beaufort, South 
Carolina, relating to the Reconstruction Era to assess the suitability 
and feasibility of designating the study area as a unit of the National 
Park System.
    In January 2001, the Reconstruction History Partnership, composed 
of the Penn Center, University of South Carolina Beaufort, City of 
Beaufort, Town of Hilton Head Island, and Beaufort County, officially 
adopted a ``Mission Statement'' affirming the partnership's intent to 
provide a cooperative framework to assist its citizens, institutions, 
and visitors in retaining, enhancing and interpreting the significant 
history and places of the Reconstruction era. The eminent 
Reconstruction scholar Eric Foner has encouraged us and has stated on a 
number of occasions that the best place in the United States to 
interpret the Reconstruction era is in the Beaufort area.
    The Reconstruction History Partnership has met regularly for over 
two and a half years and has received a grant from the South Carolina 
State Humanities Council to assist in developing an inventory of 
historic resources, to develop educational materials, and to hold a 
series of public forums. The Partnership has worked to gain the support 
of the board community and has received letters of support from: County 
Council of Beaufort County, City of Beaufort, Town of Hilton Head 
Island, University of South Carolina Beaufort, Penn Center, Institute 
for Southern Studies of the University of South Carolina, Historic 
Beaufort Foundation, Chamber of Commerce of Hilton Head Island, Coastal 
Discovery Museum on Hilton Head Island, Greater Beaufort Chamber of 
Commerce, Greater Beaufort-Hilton Head Economic Development 
Partnership, Inc., Lowcountry and Resort Islands Tourism Commission, 
Main Street Beaufort, USA, South Carolina Department of Parks, 
Recreation and Tourism. There is a broad consensus locally and 
nationally that Beaufort County retains significant historical and 
archeological sites associated with Reconstruction. These include: the 
Penn School for former slaves founded in 1862 and located on St. Helena 
Island: the Old Fort Plantation, on the Beaufort River on the grounds 
of the United States Naval Hospital, where the first African-Americans 
assembled on January 1, 1863 to hear the reading of Abraham Lincoln's 
Emancipation Proclamation which set them free; the Freedmen's Bureau 
housed in the recently restored Beaufort College; the first Freedmen's 
Village of Mitchelville on Hilton Head Island; and many noteworthy 
historic buildings and archeological sites associated with the Civil 
War hero and Reconstruction leader, Robert Smalls.
    There are certainly other places in the United States where events 
central to Reconstruction took place. However, there is no other place 
in the United States that offers the potential for interpreting so many 
varied components of the Reconstruction experience. The Reconstruction 
History Partnership has identified four themes that can ably be 
developed with the historic resources in the Beaufort area. These 
reconstruction themes are: the beginning of reconstruction in America; 
the political revolution and accompanying conflict; the social , 
economic, and demographic transformation; and education for all. Since 
the National Park Service has no current unit that is specifically 
focused on interpreting all of the varied facets of this important 
period that shaped modern American, we are most hopeful that S. 500 
will receive your support.
                                 ______
                                 
     Statement of Eric Foner, DeWitt Clinton Professor of History, 
                          Columbia University

    I write to support S. 500, the Beaufort, South Carolina Study Act, 
a bill to require the Secretary of the Interior to prepare a special 
resource study on the feasibility and suitability of establishing a new 
unit of the National Park Service in the Beaufort, South Carolina area 
to interpret the Reconstruction Era. I have spent much of my scholarly 
career researching and writing about Reconstruction.
    My book, ``Reconstruction: America's Unfinished Revolution'' 
(1988), was awarded the Bancroft Prize, Los Angles Times Book Prize, 
and several other awards. I am convinced that the best location for 
telling the story of this pivotal era in American history is the area 
of Beaufort, South Carolina.
    Reconstruction, the era that followed the American Civil War, is 
one of the least understood periods in American history. An accurate 
understanding of Reconstruction, based on the best recent scholarship, 
is essential to America's understanding of the history of race 
relations in the United States as well as of the enduring impact of the 
Civil War. Reconstruction was the period when for the first time, the 
principle of equality before the law for all citizens, regardless of 
race, was written into our law and Constitution.
    It was the first time that African Americans in significant numbers 
were allowed to participate in American democracy. The period also laid 
the foundation for the modern black community, with schools, churches, 
and families no longer subject to disruption as under slavery. For 
white Americans, too, it was a time of dramatic change. The Beaufort 
area is the most appropriate site for a Reconstruction unit. Because it 
saw little fighting during the Civil War, many buildings of historical 
importance remain intact.
    The area contains the homes of several prominent Reconstruction-era 
leaders, plantations where the transition from slave to free labor took 
place, and the Penn School, established by northern aid societies to 
teach and assist the former slaves. The Beaufort area was the home 
before the war of one of the most prominent parts of the planter class. 
It witnessed some of the pivotal events of the Reconstruction period--
the early arming of black solders; an experiment in emancipation during 
the Civil War; the election of one of the era's black Congressmen 
(Robert Smalls): All Americans would benefit form the establishment of 
a National Park unit that would preserve historic sites in this 
important place, and make available an up-to-date understanding of the 
role of Reconstruction in American history.
                                 ______
                                 
      Statement on Behalf of the American Historical Association, 
  Organization of American Historians, and the National Coalition for 
                                History

    The Organization of American Historians, the American Historical 
Association, and the National Coalition for History join today in 
urging passage of S. 500, the Beaufort, South Carolina Study Bill of 
2003, a bill to require the Secretary of the Interior to prepare a 
special resource study on the feasibility and suitability of 
establishing a new unit of the National Park Service in the Beaufort, 
South Carolina area to interpret the Reconstruction Era. This period 
marks one of the most significant turning points in American history 
for it was the time when the country made adjustments for the 
transition from slavery to freedom of a large percentage of the 
American population.
    The National Park Service has approximately thirty sites that 
interpret the Civil War; however, there are none in the National Park 
System that are devoted primarily to Reconstruction. The Andrew Johnson 
National Historical Site in Greeneville, Tennessee tells part of the 
political story and the Nicodemus, Kansas National Historical Site 
focuses on the establishment of a freedmen's town. However, there are 
no units of the National Park Service that try to deal with all of the 
political, social, cultural, and economic aspects of the Reconstruction 
Era.
    We strongly support the area of Beaufort, South Carolina for 
interpreting the Reconstruction Era because that is where the initial 
experiment with Reconstruction occurred, as the Union troops began 
occupation of this area at the end of 1861. In 1862, several 
humanitarian and missionary organizations began to send teachers from 
the North to Beaufort and the Sea Islands to undertake a massive 
education program. At the same time, the federal government initiated 
programs in the Beaufort area to assist in preparing the ex-slaves for 
inclusion as free citizens in American public life. These combined 
efforts have been called the Port Royal Experiment.
    Beaufort County retains significant historical and archeological 
sites associated with Reconstruction. Two National Historic Landmark 
Districts are in this area the campus of the Penn School for former 
slaves founded in 1862 and located on St. Helena Island, and the 
historic portion of the town of Beaufort where many of Reconstruction 
policies evolved and were implemented, including the recently restored 
Beaufort College where the Freedmen's Bureau was housed. Additionally 
there is a very significant National Register of Historic Places Camp 
Saxton Site at the Old Fort Plantation on the Beaufort River. This is 
where the first African-Americans in the country assembled on January 
1, 1863 to hear the reading of Abraham Lincoln's Emancipation 
Proclamation which set them free. An estimated 5,000 people gathered 
for the three-hour ceremony and full day celebration. Colonel Thomas 
Wentworth Higginson of the newly-organized infantry of African American 
soldiers wrote in his diary of the January 1 events ``So ended one of 
the most enthusiastic and happy gatherings I ever knew.'' Other 
historic resources of note are the first Freedmen's village of 
Mitchelville on Hilton Head Island. There are also many buildings 
associated with the African American Reconstruction leader, Robert 
Smalls, who represented the Beaufort area in the U.S. House of 
Representatives.
    The program that emerged out of the Beaufort experience surfaced 
elsewhere as America's Reconstruction policies developed and evolved. 
But Beaufort (location of the Port Royal experiment) was unique because 
it was the first and most highly publicized of these ``rehearsals for 
Reconstruction.'' It was also unique because it took place in a much 
more compact setting than occupied Louisiana or the Mississippi Valley, 
and because it was a unique grassroots effort by former-slaves and 
their northern allies to develop a vision of American freedom. While 
northern schoolteachers, missionaries, and philanthropic entrepreneurs 
streamed into Beaufort, military officials were the dominant decision-
makers in occupied Louisiana and the Mississippi Valley and implemented 
more centrally designed policies, which were constrained by larger 
resisting populations. As a result, these other locations established 
important precedents for postwar labor relations and political 
alignments, but they did not match the range of ideas that kept 
Beaufort at the forefront of national attention. For example, the 
Beaufort area's educational initiatives and the programs of job 
training and land distribution make it a compelling part of the 
Reconstruction story.
    For many years our professional historical organizations have 
worked closely with the National Park Service in providing input and 
advice on the planning and management of historic sites including many 
potential new national park areas. Since the National Park Service has 
no unit that focuses primarily on interpreting the Reconstruction Era, 
we believe that S. 500 addresses a glaring gap in the National Park 
System and merits your support.
                                 ______
                                 
      Statement of Bernt W. Kuhlmann, President of Page One, LLC, 
                    a Utah Limited Liability Company

    Mr. Chairman, thank you for the opportunity to provide this written 
statement presenting the views of Page One LLC (``Page One'') on S. 612 
and H.R. 788.
    Page One is the developer of the Page One Project (``Project'') 
which it anticipates will be located on approximately 1,800 acres of 
land in Kane County, Utah situated to the southwest of U.S. Highway 89. 
It currently has under ownership or option the portions of Sections 6, 
31 and 32 which it anticipates will be included in the Project.
    Page One is also desirous of including a portion of Section 5 in 
the Project (the ``GCNRA Parcel'') which is currently included within 
the Glen Canyon National Recre4Tiurn Area (the ``Area''). In order to 
obtain the GCNRA Parcel, Page One is willing to exchange it (the 
``Exchange'') for the portion of Section 32 which it owns situated to 
the northeast of U.S. Highway 89 (the ``Page One Parcel'').
    S. 612 and H.R. 788 authorize the Exchange. The approximate 
locations of the GCNRA Parcel and the Page One Parcel are identified on 
the map entitled ``Page One Land Exchange Proposal'' number 608/60573a-
2002 dated May 16, 2002.
    Independent appraisals obtained by Page One conclude the value of 
the Page One Parcel is in excess of two and one-half times the value of 
the GCNRA Parcel. Page One is willing to forfeit the excess appraised 
value as a donation to the National Park Service (``Service'').
    The Project is owned by the developers of Dunton Hot Springs, a 
boutique-style, luxury resort near Telluride, Co 
(www.duntonhotsprings.com). The Project is a master planned, low 
density resort and residential development. The resort will be managed 
by an acclaimed luxury hotel operator who has established a track 
record with the creation of unique, life-style hotels located in Asia, 
Africa, Europe, North America and Mexico.
    The Project, which is located in a somewhat economically 
disadvantaged area, will add value and provide commerce through job 
creation and the attraction of additional development. It is endorsed 
by the Kane County Planning and Zoning; Commission and the Southern 
Utah Planning; Advisory Council.
    The Exchange is in the common interest of the Service, the entire 
Glen Canyon community, and the general public. The Page One Parcel 
being added to the Area represents a scenic view corridor between Lake 
Powell and U.S. Highway 89 which will result in a more manageable 
boundary for the Service at its most visited entrance. In addition, the 
Page One Parcel contains three established highway access rights of 
way.
    While important to the development of the Project, the GCNRA parcel 
as presently configured consists of topographically isolated land with 
no vehicular access, no right-of-way, no water rights, and no site 
improvements,
    As the House has passed H.R. 788 and the legislation is identical 
to S. 612 we would recommend passage of H.R. 788 in order to move this 
legislation expeditiously.
    Mr. Chairman, this concludes my prepared remarks, and I request 
they be submitted for the record. I will be pleased to make myself 
available to answer the Committee's questions should the need arise.


</pre></body></html>
